              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Interim Inspection Report

Inspection of Internal Controls Over Personal
Computers at Los Alamos National Laboratory




DOE/IG-0597                                 April 2003
INSPECTION OF INTERNAL CONTROLS OVER PERSONAL
COMPUTERS AT LOS ALAMOS NATIONAL LABORATORY

TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective                      1

              Observations and Conclusions                    2

              DETAILS OF FINDINGS                             3

              Purchase Card Acquisitions
              of Computers                                    3

              Continued Use of Purchase Cards                 4

              Discrepancies in List of Classified Computers   5

              Unlocated Computers                             6

              Reporting of Stolen Laptop Computers            7

              Financial Liability                             7

              Summary                                         7

              RECOMMENDATIONS                                 8

              MANAGEMENT COMMENTS                             8

              INSPECTOR COMMENTS                              9

              APPENDIX

              A. Scope and Methodology                        10

              B. Management Comments                          11
Overview

INTRODUCTION    Computers are used extensively in the full range of operations at
AND OBJECTIVE   the Los Alamos National Laboratory (LANL), including processing
                classified national security information. LANL reported an
                inventory of approximately 5,000 laptop and 30,000 desktop
                computers at the end of Fiscal Year (FY) 2002. Department of
                Energy (DOE) and LANL property policies identify computers as
                “sensitive property,” due in part to their susceptibility to theft and
                potential for conversion to cash. It is an expected practice that
                management controls over computers throughout the DOE complex
                remain robust and consistent.

                The Office of Inspector General’s recent Special Inquiry on
                Operations at Los Alamos National Laboratory (DOE/IG-0584,
                January 2003) reported inadequate or untimely analysis of, and
                inquiry into, property loss or theft and security issues; a lack of
                personal accountability for property; and inadequate controls over
                property systems.

                The objective of this inspection is to determine the adequacy of
                internal controls over laptop and desktop computers at LANL.
                While this interim report addresses some concerns relevant to
                desktop computers, its primary focus is on accountability of laptop
                computers. A broader assessment of controls over desktop and
                laptop computers will be included in a subsequent report.




Page 1                               Inspection of Internal Controls Over
                                     Personal Computers at Los Alamos
                                     National Laboratory
OBSERVATIONS      We have determined through our field work to date, that internal
AND CONCLUSIONS   controls over classified and unclassified laptop computers at
                  LANL are inadequate. We identified control weaknesses that
                  undermine confidence in LANL’s ability to assure that laptop
                  computers are appropriately controlled; are adequately safeguarded
                  from loss or theft; and that laptop computers used to process and
                  store classified information are controlled in accordance with
                  existing security requirements.

                  Specifically, we found that:

                     •   The “purchase card process” did not assure that required
                         inventory controls were followed when new computers
                         were purchased;

                     •   Laptop and desktop computers were acquired using
                         purchase cards after LANL prohibited such purchases
                         without special authorization;

                     •   LANL could not accurately account for its single user,
                         stand-alone, classified laptop computers;

                     •   Laptop computers reported as “unlocated” were written-off
                         of the LANL Property Inventory without a formal inquiry;

                     •   Thefts of laptop computers were sometimes not reported to
                         the Office of Security Inquiries, as required; and,

                     •   Employees were not held financially liable for the loss of
                         their assigned Government computer(s) in accordance with
                         LANL requirements.

                  Additionally, there were indicators of similar problems regarding
                  desktop computers.




Page 2                                            Observations and Conclusions
Details of Findings

PURCHASE CARD                    LANL’s purchase card process1 did not assure that required
ACQUISITIONS OF                  inventory controls were followed when new computers were
COMPUTERS                        purchased.

Property Numbers                 We identified new computers that had not been assigned property
                                 numbers within the LANL Property Inventory System and
                                 instances where computer property numbers were not entered into
                                 the LANL Purchase Card Database, as required. During FYs 2001
                                 and 2002, LANL acquired approximately 1,093 new computers,
                                 including laptops and desktops, using purchase cards. LANL’s
                                 property management policy identifies computers as “sensitive
                                 items.” As such, a property number must be assigned so that the
                                 item can be tracked through LANL’s Property Inventory System.
                                 The property number assigned to all sensitive items acquired using
                                 a purchase card must be entered into the Purchase Card Database.

                                 The purchase card process requires all cardholders to inform the
                                 appropriate Property Administrator when a sensitive item is
                                 ordered. There are many Property Administrators at LANL. The
                                 Property Administrator assigns a property number and provides a
                                 bar-coded property tag. The Administrator then requests that the
                                 Property Accounting Office activate the number within the LANL
                                 Property Inventory System. The purchase card holder is
                                 responsible for entering the assigned property number for the
                                 acquired sensitive item into the Purchase Card Database.

                                 We found instances where no property numbers were assigned to
                                 computers. In other instances, we discovered that property
                                 numbers were not assigned for more than a year after the computer
                                 was acquired. We determined that the reason for these oversights
                                 was that purchase card holders had not informed Property
                                 Administrators of the computer purchases or that they had received
                                 the shipment of computers. Property numbers were not assigned at
                                 a central receiving point.

                                 The Purchase Card Database did not contain a property number for
                                 approximately 762 (70%) computers purchased during FYs 2001
                                 and 2002. The requirement to include the property number in the
                                 database serves to ensure that purchases of sensitive items and
                                 equipment are subject to appropriate property controls.

1
  In December 2002, an External Review Team retained by LANL concluded that LANL’s Purchase Card Program
had internal control weaknesses that left LANL vulnerable to fraud and abuse. The Team noted that there was a
failure in the Purchase Card Program to properly account for sensitive controlled property, which includes
computers.



Page 3                                                                                 Details of Findings
Inventory                          Computer purchases listed in LANL’s Purchase Card Database
Reconciliation                     could not be reconciled with computers listed in LANL’s Property
                                   Inventory System, due to:

                                       •    Inaccurate or incomplete descriptions of the computers;

                                       •    Differences in cost entries for the same items listed in the
                                            Purchase Card Database and the Property Inventory
                                            System;

                                       •    Purchase transactions of multiple computers with only one
                                            assigned property number; and,

                                       •    No property numbers or incorrect property numbers entered
                                            into the Purchase Card Database.

                                   Using a small sample of computers that were listed in the Purchase
                                   Card Database without property numbers, we determined that 23
                                   of 26 computers, in fact, had property numbers that had been
                                   entered into the LANL Property Inventory System. However,
                                   obtaining this information was accomplished with difficulty,
                                   requiring interviews of purchase card holders, requesters, and
                                   Property Custodians2.

CONTINUED USE                      Laptop and desktop computers were acquired using purchase cards
OF PURCHASE                        after LANL prohibited such purchases without special
CARDS                              authorization. This occurred following a change in LANL policy
                                   requiring such authorizations. A LANL memorandum changing
                                   LANL purchase card use procedures, effective August 26, 2002,
                                   states that all property-controlled items, which include sensitive
                                   items such as laptop and desktop computers, may not be purchased
                                   with purchase cards unless authorized and approved by the LANL
                                   Property Manager or Deputy Property Manager.

                                   Los Alamos officials asserted that purchase card holders were not
                                   notified by management of these changes until September 11,
                                   2002. During the period August 26 to September 11, 2002,
                                   cardholders purchased 20 laptop and desktop computers. We
                                   found that one laptop and one desktop computer were purchased
                                   after September 11, 2002. The Deputy Property Manager advised
                                   that no LANL employee had requested nor was granted approval

2
 At the request of the Office of Inspector General, LANL is currently attempting to reconcile computers acquired
by Purchase Cards with the LANL Property Inventory.



Page 4                                                                                    Details of Findings
                                    for the acquisition of a laptop computer using a purchase card after
                                    August 26, 2002.

DISCREPANCIES IN                    LANL could not accurately account for its single user, stand-alone
LIST OF CLASSIFIED                  classified laptop computers. At our request, LANL’s Office of
COMPUTERS                           Cyber Security provided a list of classified single user, stand-alone
                                    laptop computers that we subsequently found was inaccurate. We
                                    were told that the primary purpose of the Office of Cyber
                                    Security’s list was to identify the laptop computers that were
                                    accredited for processing classified information. Accreditation is
                                    the authorization by a designated approval authority that a
                                    computer can be used to process classified information in a
                                    specific environment, based on the computer meeting pre-specified
                                    technical requirements for achieving adequate data security3.
                                    Accreditation is required in accordance with DOE M 471.2-2.
                                    During our inspection fieldwork, we identified laptop computers
                                    that were not on the Office of Cyber Security’s list, were not
                                    accredited, and were being used to process classified information.
                                    The use of a laptop computer to process classified information
                                    before it is accredited circumvents the controls in place to ensure
                                    that national security interests are protected.

                                    We found the following discrepancies:

                                        •    Four laptop computers being used for classified processing
                                             were not on the Office of Cyber Security’s list;

                                        •    Two of the four laptop computers were not accredited;

                                        •    One of those two unaccredited computers had been used to
                                             process classified information for at least 1 ½ years prior to
                                             our fieldwork and identification of the problem (NOTE:
                                             Upon learning of the accreditation issue regarding the
                                             laptop computers, LANL officials took corrective action);

                                        •    Four laptop computers on the Office of Cyber Security’s
                                             list were not on LANL’s property inventory;

                                        •    One laptop computer on the Office of Cyber Security’s list
                                             did not have a valid property number;


3
 Accreditation of a laptop computer requires that it be operated under a current Classified Information Systems
Security Plan within the responsibility of a Classified Information Systems Security Officer, or an Organizational
Computer Security Representative.



Page 5                                                                                      Details of Findings
                                       •   Three laptop computers had been excessed, but were still
                                           on the Office of Cyber Security’s list; and

                                       •   Two laptop computers on the Office of Cyber Security’s
                                           list were no longer being used for classified processing.
                                           We learned that they should have been excessed.

                                  We observed that these discrepancies could have been identified
                                  by the Office of Cyber Security through a physical inventory of
                                  classified laptop computers. LANL’s Property Management
                                  Manual requires that a physical inventory and reconciliation of
                                  “sensitive property numbered Government items” be conducted
                                  annually. Office of Cyber Security officials advised us that
                                  inventories are conducted using a self-assessment process,
                                  whereby each division self-reports on its inventory of classified
                                  media, including classified laptop computers. In view of the
                                  discrepancies we identified, the self-assessment process for
                                  conducting inventories of classified computers was not sufficient
                                  to assure strict accountability for classified laptop computers.

UNLOCATED                         Laptop computers reported as “unlocated” were written-off of the
COMPUTERS                         LANL Property Inventory without a formal inquiry. Unlocated
                                  computers, while not specifically defined in LANL’s property
                                  policy, are defined by LANL as those that cannot be found
                                  following a property inventory at the end of the fiscal year. For
                                  FYs 2001 and 2002, LANL reported 22 laptop computers as
                                  unlocated4. These computers were purchased at a cost of $80,778.
                                  Although LANL’s Office of Security Inquiries (OSI) conducted
                                  inquiries into “lost” and “stolen” items5, including laptop
                                  computers, no formal inquiry was conducted on these “unlocated”
                                  laptop computers.

                                  For example, at the end of its FY 2002 inventory, Protection
                                  Technology Los Alamos (PTLA), the physical security
                                  subcontractor at LANL, identified four laptop computers as
                                  unlocated. PTLA took action to have the four laptop computers,
                                  which were purchased at a cost of $17,705, written-off of the
                                  property inventory and no OSI inquiry was conducted. Aspects of
                                  PTLA’s mission are classified and highly sensitive. PTLA




4
  The January 2003 Office of Inspector General Special Inquiry reported that during FYs 2000, 2001, and 2002, 42
laptop computers purchased at a cost of $151,821 were lost, stolen, or unlocated.
5
  Prior to January 2002, OSI conducted inquiries of stolen items only.



Page 6                                                                                   Details of Findings
                                   officials advised that the computers were not used for classified
                                   work.

REPORTING OF                       Thefts of laptop computers were sometimes not reported to LANL
STOLEN LAPTOP                      OSI, as required6.
COMPUTERS
                                   We determined that three stolen laptop computers at LANL were
                                   not reported to OSI. The computers disappeared from a “drop-
                                   point” at Technical Area 54 in June 2001. OSI officials advised
                                   that they had no record of this incident and had not conducted an
                                   inquiry.

                                   As early as November 1998, LANL’s policy disallowed the use of
                                   drop-points for delivery of laptop computers. Instead, policy
                                   required that laptop computers be picked-up by the customer at the
                                   Customer Service Center. We learned that this policy stemmed
                                   from an understanding that the use of drop-points increased the
                                   potential for theft.

FINANCIAL                          LANL employees were not held financially liable for the loss
LIABILITY                          of their assigned Government computers. In addition to the
                                   22 unlocated laptop computers reported for FYs 2001 and 2002,
                                   LANL reported 16 laptop computers, purchased at a cost of
                                   $53,267, as lost; 10 laptop computers, purchased at a cost of
                                   $32,899, as stolen; and 4 laptop computers, purchased at a cost of
                                   $11,589, as possible theft.

                                   The LANL Property Management Manual states that when
                                   equipment is lost, damaged, destroyed, or stolen, the Government
                                   may hold the property custodian financially liable for repair or
                                   replacement if it is proven that the cause resulted from willful
                                   misconduct or gross negligence. LANL’s Property Manager,
                                   Deputy Property Manager, and former Purchase Card
                                   Administrator advised that for the past two fiscal years no one has
                                   been held financially liable for any unlocated, lost, or stolen
                                   computers.

SUMMARY                            In our judgment, this review identified significant weaknesses in
                                   LANL management controls over laptop computers. Laptop
                                   computers have been acquired using purchase cards and were not
                                   assigned property numbers or bar-code tags, or were delayed in
                                   receiving such control numbers. Laptop computers not accredited


6
 The January 2003 OIG Special Inquiry found that LANL had a substantial degree of dysfunction in its
communication and assignment of responsibilities for the handling of property loss and theft concerns.


Page 7                                                                                    Details of Findings
                  to process classified information were, in fact, used to do so.
                  Stolen laptop computers were not reported to appropriate
                  authorities and computers reported as unlocated were written-off
                  of the LANL property inventory without a formal inquiry.

                  Because of these weaknesses, we were especially concerned about
                  the control over classified, sensitive, and proprietary information.
                  As a consequence, our findings and recommendations were
                  referred to the Department’s Offices of Counterintelligence and
                  Independent Oversight and Performance Assurance and to the
                  National Nuclear Security Administration’s (NNSA’s) Office of
                  Defense Nuclear Counterintelligence for review and appropriate
                  action.

RECOMMENDATIONS   We recommend that the Manager, Los Alamos Site Office, take
                  appropriate action to ensure that LANL:

                  1. Officials take prompt action to ensure that all property and
                     security policies regarding computers are fully implemented;

                  2. Conduct a full and complete accounting of laptop computers at
                     LANL and strengthen security controls over laptop computers
                     used to process classified information;

                  3. Purchase card holders adhere to LANL policies regarding the
                     use of purchase cards for the acquisition of sensitive items, and
                     that an appropriate system of checks and balances is
                     implemented to ensure compliance;

                  4. Officials initiate a formal inquiry when computers are reported
                     as unlocated;

                  5. Officials report all lost and stolen computers to the appropriate
                     Laboratory organization; and

                  6. Employees are held financially liable for lost, stolen, and
                     unlocated computers, in accordance with the Laboratory’s
                     Property Management Manual.

MANAGEMENT        Management, while not formally concurring, expressed general
COMMENTS          agreement with the report. Management stated that the issues
                  presented in the report would be factored into the corrective action
                  efforts currently underway by the University of California, Los




Page 8                                                        Recommendations
                                                           Management Comments
            Alamos National Laboratory, Los Alamos Site Office, and
            appropriate NNSA Headquarters staff offices.

INSPECTOR   Management has acknowledged the existence of internal control
COMMENTS    weaknesses at LANL. During recent discussions with University
            of California, LANL, and NNSA officials, management described
            corrective actions being implemented to address the
            recommendations in our report.




Page 9                                               Inspector Comments
Appendix A

SCOPE AND     The fieldwork portion for this interim report was conducted during
METHODOLOGY   the period December 2002 to March 2003. This review included
              interviews with DOE officials from the Albuquerque Service
              Center and officials from LANL, PTLA and other LANL
              subcontractors. We reviewed applicable policies and procedures
              pertaining to sensitive property and property management,
              including:

              •   Department of Energy Property Management Regulations,
                  Title 41 Code of Federal Regulations, Chapter 109.

              •   “LANL Property Management Manual.”

              In addition, we conducted inventory verification of a judgmental
              sample of laptop and desktop computers.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                              Scope and Methodology
Appendix B




Page 11      Management Comments
                                                                    IG Report No. DOE/IG-0597

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date __________________________

Telephone                                     Organization ____________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
